Audit Report

Office of Community Oriented Policing
Services Grants to the White Earth Reservation Public Safety Division,
White Earth, Minnesota

Report No. GR-50-05-005


February 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the White Earth Public Safety Division (White Earth PD).  The purpose of the grants is to enhance community policing.  The White Earth PD was awarded $227,348 under the COPS Tribal Resource Grant Program to hire 2 police officers and another $929,220 under the Tribal Hiring Renewal Grant Program to retain 12 police officers whose hiring was funded under earlier COPS grants.  In addition, the White Earth PD received a training and equipment grant totaling $89,832 and another training and equipment grant totaling $490,074.  

Generally, we found the White Earth PD to be in compliance with COPS grant requirements.  As of June 30, 2004, the grantee had incurred payroll costs sufficient to support the $146,922 and $180,000 reimbursed under the hiring and retention grants, respectively.  In addition, the grantee had adequate documentation to support the $89,832 and $490,074 received from the equipment grants. 

Our results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.